LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

June 2, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-1269: TCL COMMUNICATION TECHNOLOGY HOLDINGS LIMITED, ET AL.
V. TELEFONAKTIEBOLAGET LM ERICSSON, ET AL.
Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae ACT | The App
Association, on June 2, 2020, I caused service to be made pursuant to Rule 29 and the

Temporary Order of April 15, 2020 on the following counsel for the Petitioners and
Respondents.
PETITIONERS:
Seth P. Waxman
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave, NW
Washington, DC 20006
202-663-6000
Seth.Waxman@wilmerhale.com

RESPONDENTS:
Jeffrey Alan Lamken
MoloLamken LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, DC 20037
202-556-2010
jlamken@mololamken.com

This service was effected by depositing one copy of the Brief of Amici Curiae ACT |
The App Association in an official “first class mail” receptacle of the United States
Post Office as well as by transmitting a digital copy via electronic mail.

Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 2nd day of June 2020.

